No. ________________

IN THE SUPREME COURT OF THE UNITED STATES
CEDRIN FARODD CARTER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 17th day of September, 2021, in accordance with
Supreme Court Rule 29, copies of the Petition for Writ of Certiorari and Motion for
Leave to Proceed In Forma Pauperis were delivered to Federal Express, a thirdparty commercial carrier, for delivery to the Clerk within 3 calendar days.
On the same day, a copy was emailed to SupremeCtBriefs@usdoj.gov and
delivered to Federal Express for delivery to the Office of the Solicitor General of the
United States, Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001.
I certify that all parties required to be served have been served.
Respectfully Submitted,
KEVIN L. BUTLER
Federal Public Defender
Northern District of Alabama
DEANNA LEE OSWALD
Assistant Federal Public Defender

TOBIE J. SMITH
Appellate Attorney
Federal Public Defender’s Office
Northern District of Alabama
505 20th Street North, Suite 1425
Birmingham, Alabama 35203
(205) 208-7170
Tobie_Smith@fd.org

